Joan Carol Lipin
45 East 89th Street, Apartment 14G
New York, New York 10128
(212) 722-5894; jclipin@aol.com

By Federal Express
June 22, 2021

Honorable Scott S. Harris
Clerk of the Supreme Court
of the United States

Office of the Clerk

1 First Street, N.E.
Washington, DC 20543-0001

Re: Joan Carol Lipin
v. Wisehart Springs Inn, Inc., et al.
No. 20-1672

Honorable Sir:

Petitioner opposes the motion for an extension of time “in which to file a brief
in opposition to certiorari” Respondent DEBBIE GRIFFITH, in her official capacity as
Delta County Assessor filed on June 21, 2021.

Rule 30.4 of the Rules of this Court states: “4. A motion to extend the time to file
any document or paper other than those specified in paragraph 3 of this Rule may be
presented in the form of a letter to the Clerk setting out specific reasons why an

extension of time is justified. [Emphasis added.]

The letter motion of Respondent Griffith does not set out “specific reasons why
an extension of time is justified, and merely stated: “The extension is respectfully
requested because of counsel’s other professional commitments.” (Letter at § 2)

Petitioner therefore respectfully requests Respondent Griffith’s motion for an
extension of time be denied.

Respectfully submitted,

Joan ov, Lipin

Petitioner Pro Se RECEIVED
JUN 24 2021

F THE CLERK
SUPREME COURT, US.

  
          
CERTIFICATE OF SERVICE

Petitioner hereby certifies that a true copy of the aforesaid opposition Letter to
Respondent Griffith’s letter motion for an extension of time was served, by United
States Mail, postage pre-paid, this 22>4 day of June, 2021upon:

Respondents Wisehart Springs Inn, Inc., Arthur D. Wisehart, in Ars individual
capacity, and in his capacity as President and “Alter-Ego” of Wisehart Springs Inn,
Inc., Ellen EE. Wisehart, Richard Hunter Kreycik, and Erin M. Jameson

Respondent attorney Mark Apelman

By mailing same to attorney Mark Apelman at his law office, Boyle/Apelman
PC, 1660 Lincoln Street, Suite 1510, Denver, CO 80264.

Petitioner also certifies that a true copy of the aforesaid opposition Letter to
Respondent Griffith’s letter motion for an extension of time was served, by United
States Mail, postage prepaid, this 22"4 day of June, 2021, upon:

Respondent Debbie Griffith, in her capacity as Delta County Assessor

By mailing same to attorney Driscoll at his law office: Jeffrey L. Driscoll,
WILLIAM, TURNER & HOLMES, P.C., 774 Horizon Court, Suite 115, Grand
Junction, CO 81506.

Petitioner hereby certifies that a true copy of the aforesaid opposition Letter to
Respondent Griffith’s letter motion for an extension of time was served, by United

States Mail, postage pre-paid, this 2274 day of June, 2021, upon:

Respondent attorney Rebecca W. Geyer

By mailing same to attorney Geyer at her law office: Rebecca W. Geyer &
Associates, P.C., located at 11550 N. Meridian Street, Suite 200, Carmel, Indiana

46032.
Joan = Lipin

45 East 89th Street, Apartment 14G
New York, New York 10128
212.722-5894; jclipin@aol.com

Petitioner, Pro Se
